                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                 Washington, DC 20415


   Office of the
Inspector General	                        November 15, 2012              Report No. 4A-CF-00-12-040


             MEMORANDUM FOR JOHN BERRY

                            Director


             FROM:	                   PATIUCKE.McFARLAND                ~J:~#--w(
                                      Inspector General             L:J~
             SUBJECT:	                Audit of the Office of Personnel Management's Fiscal Year
                                      2012 Special-Purpose Financial Statements


             This memorandum transmits KPMG LLP's (KPMG) report on the Office of Personnel
             Management's (OPM) Fiscal Year 2012 Closing Package Financial Statements and the
             results of the Office of the Inspector General's (OIG) oversight of the audit and review of
             that report. OPM's Closing Package Financial Statement Reports include the reclassified
             balance sheets, the statements of net cost, the statements of changes in net position, and
             the accompanying notes as of September 30, 2012 and 2011; the Additional Note No. 31;
             and the trading partner balance sheets, the statements of net cost, and the statements of
             changes in net position as of September 30, 2012 (hereinafter collectively referred to as
             the special-purpose financial statements). These special-purpose financial statements
             directly link the entities' audited consolidated department-level financial statements to
             the Financial Report of the Government (the government-wide financial statements).

             We contracted with the independent certified public accounting firm KPMG to audit
             OPM's special-purpose financial statements as of September 30, 2012 and 2011. The
             contract requires that the audit be done in accordance with generally accepted government
             auditing standards and the Office of Management and Budget Bulletin No. 07-04, Audit
             Requirements for Federal Financial Statements.

             KPMG reported that OPM's special-purpose financial statements are presented fairly, in
             all material respects. KPMG noted no matters involving the internal control over the
             financial process for the special-purpose financial statements that are considered a
             material weakness or significant deficiency. KPMG disclosed no instances of
             noncompliance or other matters that are required to be reported. The objectives of
             KPMG's audits of the special-purpose financial statements did not include expressing an
             opinion on internal controls or compliance with laws and regulations, and KPMG,
             accordingly, does not express such opinions.




        www.opm.gov	                                                                            www.usajobs.gov
John Berry                                                                                 2

O IG Eva luation of KPMG' s Aud it Perform an ce

In connection with the aud it contract, we reviewed KPMG' s report and related documentation
and made inquiries of its representatives regarding the audit. To fulfill our audit
respon sibilities under the Chief Financial Officers Act for ensuring the quality of the audit
work performed, wc conducted a review of KPMG' s aud it of OPM's Fiscal Year 20 12 and
20 11 special-purpose financial statements in acco rdance with Government Auditing Standards
(GAS). Specifically, we :

    •	 reviewed KPMG' s approach and planning of the audit;
    •	 eva luated the qualifications and independ ence of its auditors;
    •	 mon itored the progress of the audit at key poi nts;
    •	 examined its worki ng papers related to planning the audit and assessing internal
       controls over the financial reporting process;
    •	 revie wed KPMG' s audit reports to ensure compliance with GAS;
    •	 coordinated issuance of the audit report; and
    •	 performed other procedures we deemed necessary.

Our re view, as differentiated from an audit in accordance with generally accepted
government aud iting standards, was not intended to enable us to express, and we do not
express. opi nion s on OPM's special-purpose financi al statements. KPMG is respon sible
for the attached aud itor's report dated November 15, 20 12, and the conclusion s expressed
in the repo rt. However, our review disclosed no instances where KPMG did not comply,
in all material respects. with the generall y accepted GAS .

If you have any questions about KPMG' s aud it or our oversight. please contact me or
have a member of your staff contact Michae l R. Esser. Assistant Inspector General for
Audits, at _        .

Attachment


cc: Dennis Coleman
    Chief Financial Officer


   Deputy Chief Financial Officer
